CERTIFICATE OF SERVICE
The undersigned certifies that, on this 17th day of December 2020, in addition
to electronically filing the accompanying Brief Amicus Curiae of Rep. Andy Barr in
Support of Petitioners – together with a word-count certificate –one true and correct
copy of the foregoing documents were served by U.S. Priority Mail, postage pre-paid,
with a PDF courtesy copy served via electronic mail on the following counsel:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Tel: 202-514-2217
Email: SupremeCtBriefs@USDOJ.gov

Tania Maestas
Deputy Attorney General
Office of the Attorney General
PO Drawer 1508
Santa Fe, NM 87504-1508
Tel: (505) 490-4060
Email: tmaestas@nmag.gov

In addition, the following parties accepted service via electronic mail pursuant to the
Court’s order dated April 15, 2020, and the undersigned certifies that, on this 17th
day of December 2020, the accompanying Brief Amicus Curiae of Rep. Andy Barr in
Support of Petitioners – together with a word-count certificate – were served via
electronic mail on the following counsel:
Dror Ladin
ACLU Foundation
125 Broad Street
New York, NY 10004
Tel: 212-549-2500
Email: dladin@aclu.org

Joshua A. Klein
Office of the Solicitor General
California Department of Justice
1515 Clay Street, Suite 2000
Oakland, CA 94612-1413
Tel: 510-879-0756
Email: joshua.klein@doj.ca.gov

The undersigned further certifies that, pursuant to this Court’s order dated April 15,
2020, on this 17th day of December 2020, a single original of the accompanying Brief
Amicus Curiae of Rep. Andy Barr in Support of Petitioners – together with a wordcount certificate and this certificate of service – were dispatched for hand delivered
1

to the Court.
I declare under penalty of perjury that the foregoing is true and correct.
Executed December 17, 2020,
/s/ Lawrence J. Joseph
______________________________
Lawrence J. Joseph
Counsel for Amicus Curiae

2

